fT

ummm (CQCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

Est.1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-279
SHIRLEY JN JOHNSON, individual,
Petitioner,
Vv.

NEW DESTINY CHRISTIAN CENTER CHURCH, INC.,
Florida not for profit corporation a/k/a Paula White
Ministries, PAULA MICHELLE MINISTRIES, INC.,
Florida not for profit corporation a/k/a Paula White
Ministries; and PAULA MICHELLE WHITE, individually
and in her official capacity as President, Director and
Senior Pastor of New Destiny Christian Center Church,
Inc. a/k/a Paula Michelle Cain,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 1928 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska : LS A
My Commission Expires Nov 24, 2020

Notary Public Affiant

 

38843
